<html>
<title> - EXAMINING THE STATUS OF ENERGY STORAGE TECHNOLOGIES, REVIEWING TODAY'S TECHNOLOGIES AND UNDERSTANDING INNOVATION IN TOMORROW'S TECHNOLOGIES</title>
<body><pre>[Senate Hearing 115-487]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-487

EXAMINING THE STATUS OF ENERGY STORAGE TECHNOLOGIES, REVIEWING TODAY'S 
  TECHNOLOGIES AND UNDERSTANDING INNOVATION IN TOMORROW'S TECHNOLOGIES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2017

                               __________
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                               

                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                           
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
27-431                     WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="690e1906290a1c1a1d010c0519470a060447">[email&#160;protected]</a>                 
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
             Dr. Benjamin Reinke, Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Spencer Gray, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Sprenkle, Dr. Vincent, Manager, Electrochemical Materials and 
  Systems Group, Pacific Northwest National Laboratory...........     5
Kathpal, Praveen, Vice President of Global Market Development, 
  AES Energy Storage, and Chair of the Board of Directors, Energy 
  Storage Association............................................    14
Moores, Simon, Managing Director, Benchmark Mineral Intelligence.    24
Seifarth, John, Head of Engineering, Voith Hydro, Inc............    33

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Abraham, David S.:
    Statement for the Record.....................................   115
Cantwell, Hon. Maria:
    Opening Statement............................................     3
Kathpal, Praveen:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................   100
Moores, Simon:
    Opening Statement............................................    24
    Written Testimony............................................    26
    Responses to Questions for the Record........................   105
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Seifarth, John:
    Opening Statement............................................    33
    Written Testimony............................................    35
    Responses to Questions for the Record........................   111
Sprenkle, Dr. Vincent:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    92
Williams, Jasmine:
    Letter for the Record........................................   119
Zeigler, Colin:
    Statement for the Record.....................................   120

 
EXAMINING THE STATUS OF ENERGY STORAGE TECHNOLOGIES, REVIEWING TODAY'S 
  TECHNOLOGIES AND UNDERSTANDING INNOVATION IN TOMORROW'S TECHNOLOGIES

                              ----------                              


                        TUESDAY, OCTOBER 3, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:32 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We had originally scheduled a business meeting of the 
Energy Committee to consider two nominees for the Department of 
Energy (DOE), but we have not been able to arrange for a 
sufficient number of members to advance them, so we will alert 
members to when we will take that up, likely after the next 
scheduled vote. It is my understanding there are no votes 
scheduled for today, so I do not anticipate that we will have 
this today. It is my intention, again, to try to advance not 
only these nominees out of Committee but those that have been 
moved to the Floor so that hopefully we can get some of the 
teams filled up.
    Today we are here to conduct an oversight hearing to 
consider the status and the future of energy storage 
technologies. We have all heard about the benefits that can be 
associated with the deployment of energy storage, including 
increased grid reliability and resilience. As we think about 
``reliability and resilience,'' we recognize they really have 
taken on even greater meaning in the wake of several recent 
natural disasters.
    Of course, our prayers continue to go out to all those who 
have been impacted, whether they be in Texas, Louisiana, or 
Florida and, of course, those who are facing the most desperate 
situation right now and those are the Americans that live in 
our island territories. Puerto Rico and the U.S. Virgin Islands 
are in a state of emergency right now. Our top priority is to 
make sure that local residents have food, water, medicine, and 
shelter.
    I have notified all members of this Committee as well as 
the Appropriations Committee that we are looking to travel to 
the area as soon as the situation has stabilized enough for us 
to do so. I would also anticipate that we will be holding a 
hearing about the status of the recovery and our options for 
rebuilding.
    There are some quick steps we can take, like the 
confirmation of well-qualified nominees with expertise that can 
be put to use in the response effort. Bruce Walker, who was 
before the Committee last week as the nominee to lead the 
Department of Energy's Office of Electricity, I think, is a 
pretty good example of that. But there are also some longer-
term steps that we can take and that we should already be 
thinking about.
    At the top of that list is how we can help rebuild the 
grids of Puerto Rico and the Virgin Islands. While the Virgin 
Islands' grid is not in as difficult of shape as Puerto Rico, I 
think we recognize that the situation on the ground is 
something that needs to be addressed. We urgently need to 
restore electric power, but we also need to be looking for ways 
to make those grids more reliable and more resilient than ever 
before. Energy storage really has to be considered in that 
conversation, just as it has been part of our policy 
conversations here in the Committee throughout this year.
    In June, we held a hearing on cost trends in emerging 
energy technologies that included energy storage. We learned a 
little bit about how costs are decreasing while opportunities 
are increasing.
    Shortly after that, we had a field hearing in Cordova, 
Alaska, to learn how hybrid microgrids can facilitate the 
integration of various renewable resources while reducing costs 
and increasing reliability. I tell my colleagues here on the 
Committee all the time, so many of our remote communities in my 
state are completely disconnected from a traditional grid. We 
truly are islanded in that sense.
    We are innovating in some unique ways, bringing local 
resources together to decrease dependence on expensive diesel 
generation. So whether it is 60 below in Alaska and you are 
trying to stay warm, or 100 above somewhere in the South and 
trying to stay cool, we need reliable and resilient systems, 
and storage technologies like flywheels and batteries are vital 
to making them work.
    Today's energy storage technologies are finding market 
applications for a host of different value streams that they 
provide such as frequency regulation, spinning reserve, load 
leveling, peak shaving, power quality, and capacity firming.
    We have a lot to gain by advancing energy storage 
technologies, but that will also require innovative solutions 
to some very real challenges. Each type of energy storage 
technology has its own specific physical attributes, based on 
the physics that enables it. These can be well-suited for 
certain applications, but perhaps not so well-suited for 
others.
    Today's burgeoning lithium-ion battery markets, and other 
future energy storage technologies, will also provide serious 
challenges to our minerals supply chains. We already import at 
least 50 percent of 50 different mineral commodities. We cannot 
allow that to worsen as these technologies grow in use.
    Once energy storage technologies are designed and 
manufactured, they also have to carve out market applications 
that match the value streams that they can provide. So we need 
to ensure that federal policies do not unintentionally hinder 
the evolution of markets for this sector.
    Energy storage offers great opportunities and I think we 
need technologies, resource supply chains, and markets that are 
prepared to take full advantage of them.
    I look forward to hearing about the successes of today's 
technologies and learning more about what we expect to see in 
the future.
    I thank the gentlemen who have agreed to join us here this 
morning on our panel. With that, I turn to Senator Cantwell for 
her comments this morning.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and I look 
forward to hearing from our witnesses today.
    I, too, want to mention that we need to keep vigilant on 
the situation in Puerto Rico, as a Committee that has 
jurisdiction over that as a territory. I am hoping today that 
with the President's visit he will make a full declaration of 
emergency for the entire island. I know that there are some 
municipalities for which the declaration has not been formally 
made, but I hope it isn't because we don't have communication 
lines between those municipalities to make that.
    As somebody who has seen a lot of natural disasters in my 
state, I am telling you that getting the declaration done as 
soon as possible is key. And we just need to flatten that issue 
as quickly as possible.
    I still think we need a coordinator at the White House 
level for all the various agencies that are going to have to 
work on the recovery of Puerto Rico, and so I hope that the 
White House will still continue that. And I hope that one of 
the large shipping employers in both of our states, who has 
offered to get large-scale generators to Puerto Rico that could 
help provide much of the necessary power grid opportunities, 
will be taken advantage of very shortly. So, lots of work to do 
there, and thank you for your attention to that.
    Today's hearing about storage as a new platform is an 
incredible machine opportunity with what we call ``the grid.'' 
The grid was named one of the greatest inventions of the 21st 
century by the National Academy of Engineering, and it was a 
platform that had so many advances to it. Just like roads or 
waterways or communication networks, it is a great enabler.
    We can think of storage like we think of the grid itself. 
Just as the grid has become a platform for innovation, storage 
can be part of a platform for the new innovative grid. Deployed 
across the grid with new battery storage technologies, the 
whole grid and its delivery system, if you will, can be turned 
upside down.
    We in the Northwest dream of that, as it relates to 
probably more electric cars per capita than anybody in the 
nation. Why? Because we also have the cheapest electricity, and 
people dream of the fact that those could become storage 
vehicles, in and of themselves, and sell back onto the grid 
with the right enabling technology and thereby become a whole 
platform unto itself.
    So, like a Swiss Army knife, storage can perform more 
functions as a single element than any other part of the grid 
and that scale, this flexibility, will create a new kind of 
system. It will open the possibilities of things we can't even 
see today.
    We are starting to see growth in storage that we've already 
seen in renewables. Last year, 100 percent year-over-year 
growth in storage; today, prices for lithium-ion vehicle 
batteries have dropped 80 percent from six years ago; and in 
five years, GTM Research forecasts seven gigawatts of new 
storage, or 20 times higher than last year.
    So, storage is here, and I'm sure that's what our panelists 
will tell us. And it's going to get even better and cheaper.
    Federal funding will accelerate this innovation, and 
federal support can bridge the gap between basic research and 
commercial sales.
    Now is not the time to be slashing our research budget. For 
example, the President has proposed cutting DOE's Office of 
Electricity storage program by 61 percent.
    Meanwhile, Secretary Perry has embraced an obsolete view of 
the grid. On Friday, he asked FERC to adopt a radical proposal. 
This proposal would bail out coal and nuclear power plants at 
the expense of everyone else, raising electricity rates for 
other consumers. Natural gas, renewables, efficiency, storage, 
and most importantly, consumers, would all lose out in this 
proposal. I hope FERC rejects his unsolicited, backward 
proposal. Instead, FERC can accelerate removing policy barriers 
to new technologies, such as how to work with storage in the 
marketplace.
    So I look forward to hearing from our witnesses today about 
this particular opportunity that's in front of us, and I hope 
that we can also draw lessons from the tragedy that we are 
seeing in Puerto Rico as it relates to what we can do to move 
forward to give us more opportunities to be more resilient and 
to build stronger efficiencies into our system.
    Thank you, Madam Chair.
    Senator Stabenow. Madam Chair, if I might?
    The Chairman. Senator Stabenow.
    Senator Stabenow. Thank you very much.
    I will be going back and forth between the Finance and 
Energy Committees this morning, and if I am not able to get 
back I would like very much to enter questions into the record. 
I just would ask consent to do that, if I am not able to get 
back. Hopefully, I am going to be able to do that, but I am 
attempting my spot of ``beam me up Scotty'' and trying to be 
two places at once, as we always do.
    So, thank you.
    The Chairman. We understand that and appreciate your 
interest. Of course, your questions for the record will be 
included. Thank you for your interest in the importance of 
storage.
    We are joined this morning by four individuals, all experts 
in their respective areas.
    We will lead off the panel this morning with Dr. Vincent 
Sprenkle, who is the Technical Group Manager for the 
Electrochemical Materials and Systems Group at one of our 
national laboratories, Pacific Northwest National Laboratory 
(PNNL). Welcome.
    He will be followed by Mr. Praveen Kathpal, who is the Vice 
President for AES Energy Storage. He is also the Chair for the 
Board of Directors for the Energy Storage Association. Welcome.
    Mr. Simon Moores is with us. He is the Managing Director 
for Benchmark Mineral Intelligence. We will hear about the 
intersection between critical minerals and energy storage.
    Our last panelist this morning is Mr. John Seifarth, who is 
the Director of Engineering at Voith.
    Welcome to all of you.
    Dr. Sprenkle, if you would like to lead off the panel this 
morning?

  STATEMENT OF DR. VINCENT SPRENKLE, MANAGER, ELECTROCHEMICAL 
    MATERIALS AND SYSTEMS GROUP, PACIFIC NORTHWEST NATIONAL 
                           LABORATORY

    Dr. Sprenkle. Thank you, Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee. I appreciate this 
opportunity to testify today.
    My name is Dr. Vincent Sprenkle, and I manage the 
Electrochemical Materials and Systems Group at Pacific 
Northwest National Laboratory in Washington State.
    The research being conducted at PNNL is at the forefront of 
energy storage R&D and our scientists have been critical to 
innovations developed under several DOE programs, including the 
Office of Science's Joint Center for Energy Storage Research 
and the Office of Electricity's Energy Storage Program. In 
addition, PNNL is leading the vehicle technologies program 
Battery500 consortium, targeting a two to three times increase 
in the range of electric vehicles for the same weight of 
batteries we have today.
    Across these programs, PNNL scientists leverage a unique 
suite of tools and facilities to develop prototypes and 
validate the performance of next generation battery systems. 
Since 2009, our staff have issued 375 peer-reviewed 
publications and been awarded 45 U.S. patents that have been 
licensed to 20 companies.
    For the past eight years, my focus has been on grid-scale 
energy storage and that will be what I have in my testimony 
today.
    As you had indicated, the past decade has seen tremendous 
growth in the energy storage market for both transportation and 
grid-scale batteries. Even with this growth, battery 
deployments still make up less than 0.1 percent of the U.S. 
electrical capacity and significant R&D challenges remain 
across the technical readiness spectrum that can lower the cost 
and improve the value proposition of energy storage.
    Under the DOE Office of Electricity program, PNNL 
researchers have been instrumental in accelerating the 
development of technologies that will enable storage to have a 
greater role in improving the reliability, the efficiency, and 
resiliency of the electrical grid.
    The program is closely aligned with the 2013 DOE Grid 
Energy Storage report, which identified four major challenges: 
cost competitive technologies, improved safety and reliability, 
standardized valuation methods, and industrial acceptance.
    While the falling cost of lithium-ion batteries have 
enabled energy storage to be deployed on the grid for high 
value applications, other technologies like redox flow battery 
systems may ultimately prove to be lower cost and longer life 
solutions.
    In 2010, PNNL researchers developed an improved vanadium 
redox flow battery electrolyte. Variations of this work have 
been licensed now to eight companies, including UniEnergy 
Technologies, or UET, who now employs over 60 people. To date 
they have installed 18 megawatt hours of commercial systems in 
the U.S. and abroad with another 365 awarded or under contract.
    What's exciting about this is this technology has managed 
to achieve or come close to the cost parity with lithium-ion in 
about five years of commercial development compared with the 25 
years it took for lithium-ion to achieve that same area.
    The new chemistries we are developing today have the 
opportunity to even further reduce that cost structure. The 
U.S. R&D pioneered the innovation between most modern battery 
technologies, including the widely-used lithium-ion. We believe 
future R&D leadership in energy storage will require continued 
commitment across the following areas: one, integrated science 
and technology investments from advanced characterization and 
design tools of those next generation systems to experimental 
testing and validation can deliver technologies that meet the 
cost and technical requirements of a majority of grid 
applications; accelerating the commercialization of 
breakthrough technologies requires new manufacturing paradigms 
that can be developed that quickly move these ideas from the 
innovation to systems level that are cost-effective and can be 
validated; regional technology demonstrations with federal and 
state support are needed to build user confidence; and the 
technology can enable utilities across the country to more 
effectively and efficiently deploy the technology.
    Finally, standardized valuation methods that accurately 
capture the value of energy storage for utilities and 
regulators are needed along with advanced controls that 
seamlessly integrate with different technologies and enable 
more autonomous operation.
    In conclusion, we have seen energy storage make a 
significant impact in the market, but there is a continuing 
need across the entire innovation spectrum to reduce the cost 
and increase the performance to realize the full potential of 
the benefits energy storage can provide.
    Unlocking the full potential of U.S. researchers to address 
the fundamentals of energy storage, discover new materials, and 
rapidly translate these discoveries into practical applications 
is necessary to ensure the U.S. remains a leader in this 
technology.
    Thank you and I look forward to any questions you may have.
    [The prepared statement of Dr. Sprenkle follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Dr. Sprenkle.
    Mr. Kathpal, welcome.

 STATEMENT OF PRAVEEN KATHPAL, VICE PRESIDENT OF GLOBAL MARKET 
  DEVELOPMENT, AES ENERGY STORAGE, AND CHAIR OF THE BOARD OF 
             DIRECTORS, ENERGY STORAGE ASSOCIATION

    Mr. Kathpal. Thank you, Chairwoman Murkowski, Senator 
Cantwell and distinguished members of the Committee.
    My name is Praveen Kathpal. I'm the Vice President of 
Market Development for AES Energy Storage, and I'm Chair of the 
Board of Directors of the Energy Storage Association.
    AES is a Fortune 200 company, headquartered in Arlington, 
Virginia, and we operate in 17 countries and 15 U.S. states. We 
have over 10 years of experience building and operating 
utility-scaled, battery energy storage systems.
    I'm honored to testify in front of you today on the topic 
of energy storage and its role in the electric power sector.
    Energy storage technologies are vital for transforming our 
electric grid. Energy storage sits at the intersection of 
several trends shaping the future of electricity: the 
electrification of transportation, increased adoption of 
renewable energy, and an aging generation fleet.
    As an industry, we are mobilizing around this growing 
opportunity. We expect the need for energy storage solutions 
globally to grow to ten times the size of today's market in the 
next five years. And as a company, AES recently announced a 
partnership with Siemens to create a U.S.-based joint venture 
that will take energy storage technology and services to 
customers in over 160 countries.
    While there are several mature and emerging energy storage 
technologies, AES believes that batteries, lithium-ion 
batteries in particular, are best suited to serve the 
mainstream needs of the electricity industry because the 
technology is mature, it is available at low cost, and it is 
manufactured at a massive scale. The industry is coalescing 
around this technology with lithium-ion batteries representing 
over 95 percent of new energy storage installations in the past 
two years.
    One of the constant challenges the electricity industry 
faces is capacity planning, having enough power generation 
capacity to meet demand during the moments when demand is the 
highest. The old way of solving this problem by building new 
gas-fired peaking power plants will lock a generation or two of 
electricity customers into paying for expensive plants that 
will outlive their usefulness. Imagine buying a rotary phone 
and being stuck with it for the next 30 years, even after the 
iPhone was available.
    By 2030, the U.S. needs another 40,000 megawatts of peaking 
capacity which translates to spending about $45 billion 
building new power plants that will only be used a few hours 
per year.
    Fortunately, there is a better way. AES is currently 
building what will be the largest battery facility in the world 
in Long Beach, California. It was selected by the utility's 
Southern California Edison among many other choices to provide 
peaking capacity because it was the most economic option.
    This is a proof point that energy storage is cost-effective 
when it is seriously considered as an alternative and that it 
is available at a scale where it can truly substitute for 
building new power plants.
    Recently, a utility in Arizona partnered with AES to use a 
battery when meeting peak demand in a small, remote town at 
half the cost it would have taken to upgrade the long power 
lines serving the town.
    Unfortunately, energy storage does not always get a fair 
shake. Most existing power markets or planning and procurement 
mechanisms do not appropriately weigh energy storage as an 
alternative to building new power plants or power lines.
    At the Energy Storage Association, we are working closely 
with the Federal Energy Regulatory Commission, utility 
companies, state regulators, and other stakeholders to remove 
structural barriers that favor legacy technologies, improving 
access for energy storage, and increasing competition. Smart 
policies that reduce these barriers will accelerate consumers 
benefiting from reduced costs, improved reliability and 
resilience and cleaner air.
    Madam Chairwoman, thank you again for the opportunity to 
testify today. I would like to invite you and the other members 
of the Committee to visit any of our battery energy storage 
facilities in the U.S.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Kathpal follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Kathpal and thank you for the 
invitation.
    Mr. Moores, welcome.

STATEMENT OF SIMON MOORES, MANAGING DIRECTOR, BENCHMARK MINERAL 
                          INTELLIGENCE

    Mr. Moores. Thank you very much, Chairman Murkowski, 
Senator Cantwell, members of the Committee. I very much 
appreciate allowing myself to speak on, really, the supply 
chains going into these, to make these lithium-ion batteries.
    My name is Simon Moores. I'm Managing Director of Benchmark 
Mineral Intelligence, and we spend most of our time further up 
from where the battery cells are actually produced. We go from 
the battery cell plants to the mines and everywhere in between 
to track data, price data, market data, numbers on the 
industry, what's happening in the real world.
    I want to outline the states of play in the lithium-ion 
battery industry which, obviously, are extremely relevant for 
energy storage, as the applications you mentioned, which would 
be stationary utility storage and then also, most importantly, 
electric vehicles.
    And so, from our perspective we're in the midst of a 
lithium-ion battery arms race around the world. Over the last 
three years we've seen these lithium-ion battery megafactories 
which are battery plants above one gigawatt/hour capacity rise 
everywhere.
    It started with the Tesla Gigafactory in Nevada, but now we 
have 17 of them worldwide. And they continue to be popping up 
everywhere. The key thing is not just the size of growth that 
we're about to see in the lithium-ion battery industry, we 
expect that to go from 80 gigawatt/hours in 2016 to between 550 
and 650 gigawatt/hours demand by 2025, but it's the impact this 
is having on the raw material supply chains.
    So these are critical raw materials that go into these 
battery cells: lithium, graphite, cobalt and nickel. And it's 
important to understand these raw materials, not as commodities 
as we would probably be familiar in understanding minerals and 
metals but specialities. These are niche industries. These are 
tailored chemicals and materials that go into batteries, and 
the industries have to go from the niche to the mainstream.
    So the production of these raw materials and these 
intermediate products have to come in order of magnitude bigger 
over a very short period of time, between five and seven years, 
in order to meet the demands from the auto companies and from 
the energy storage facilities as well. This means money, quite 
frankly.
    For example, we've seen the lithium price increase four 
times in the last two years just because there isn't enough 
supply to meet demand driven by the battery sector. In this 
recent price spike lithium has raised about $1 billion, but 
really between $7 and $10 billion ago, we need it to fuel this 
energy storage revolution, to actually get the batteries into 
production, into the market. So that's a complete change in how 
these mineral industries operate.
    Where we stand today, China is not only at the center of 
mass market electric vehicles, but it is at the center of all 
of these supply chains. It's not just where the resources lie, 
but it's actually the key steps, the battery grade processing 
steps along that supply chain, that really, we have to be 
focusing on trying to control, as a development and deployment 
of these electric vehicles, but cathode production, battery 
grade production and building out of new cells of capacity.
    So of the megafactories mentioned, 64 percent of that 
capacity is being built in China. Only 13 percent so far is 
being built in the U.S. This could change over time as new 
plants get planned.
    We're at the beginning of this energy storage revolution 
which, I think, everybody really agrees with that one. This is 
powered by lithium-ion batteries initially, the energy storage 
based on the utility storage space, should I say, will have 
many opportunities for other batteries, such as vanadium flow, 
as well.
    So there are many risks and many opportunities and we're 
just starting, but I'm happy to answer to any questions you 
have and very much appreciate your time.
    [The prepared statement of Mr. Moores follows:] 
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Moores. We appreciate the 
focus on critical minerals, and this is just the beginning of 
the discussion here when we are talking about what will be 
needed to help facilitate energy storage.
    Mr. Seifarth, welcome.

 STATEMENT OF JOHN SEIFARTH, HEAD OF ENGINEERING, VOITH HYDRO, 
                              INC.

    Mr. Seifarth. Chairman Murkowski and Ranking Member 
Cantwell, thank you for inviting me here today to testify. I'm 
John Seifarth, the head of engineering at Voith Hydro in York, 
Pennsylvania, about two hours up the road from here. We trace 
our roots in the United States back 140 years. Currently, we 
employ around 600 employees.
    Voith is a leading supplier of hydroelectric equipment and 
has supplied or modernized a majority of the pumped storage 
hydro facilities in the United States. Pumped storage hydro is 
the only proven form of large-scale energy storage, giving 
utilities and grid operators stability and reliability. Pumped 
storage hydro is also essential for deployment of additional 
renewable energy sources, such as wind and solar.
    Currently, 97 percent of utility-scale energy storage in 
the United States is from pumped storage hydro. It represents 
nearly 22 gigawatts, or 20 percent, of our installed 
hydroelectric capacity.
    How does it work? When energy demand is low, water is 
pumped to a higher elevation reservoir. The upper reservoir 
stores this water for points in time when energy demand 
increases and the water is simply released back through the 
turbines to generate electricity. It does this with an overall 
efficiency of 80 percent, surpassing other storage 
technologies.
    Pumped storage has evolved from conventional pumped storage 
which reacts to grid demands in minutes to current, state-of-
the-art pumped storage facilities that react to the grid 
demands in milliseconds.
    Unfortunately, pumped storage is often not valued properly 
in the market. Like other hydropower technologies, pumped 
storage projects are subject to an incredibly long licensing 
process, include the development costs and it becomes difficult 
for utilities to pursue pumped storage projects despite their 
obvious benefits.
    With respect to licensing, Committee members deserve credit 
for their work on the Energy Policy Modernization Act of 2016. 
That bill sought to streamline the hydropower licensing 
process, including designating the Federal Energy Regulatory 
Commission (FERC) as the lead agency throughout the process. It 
would also give FERC the authority to set a schedule for this 
cumbersome process while maintaining environmental safeguards.
    I am pleased to see Chairman Murkowski and Ranking Member 
Cantwell reintroduce similar legislation in the Energy and 
Natural Resources Act of 2017. That bill contains Ranking 
Member Cantwell's proposal for a $50 million annual energy 
storage research, development, and demonstration program. The 
bill also requires FERC to establish an expedited review of the 
licensing process and market compensation barriers for new 
closed-loop and low-impact pumped storage projects.
    Pumped storage R&D, through DOE, would fund the development 
of new turbine designs and small modular pumped storage 
projects and quantify the gaps in the policy evaluation of 
ancillary services and grid reliability. Complete and accurate 
valuation is perhaps the biggest challenge and opportunity for 
pumped storage hydro. If pumped storage isn't valued correctly 
and accurately in the market, it simply won't get built.
    The tax code is another solution. Congress should adopt an 
extension of the hydropower investment tax credit which expired 
in 2015. An investment tax credit for new pumped storage 
projects should also be considered.
    As a point of reference, our European colleagues are 
already building new and modernizing existing pumped storage 
facilities with cutting edge equipment that reacts to grid 
faults in milliseconds. This is required to manage their 
increase in wind and solar energy.
    Our task is clear. Pumped storage deployment is essential 
for the expansion of renewables. The 2016 DOE Hydropower Vision 
Report determined that pumped storage hydropower has the 
potential to grow by 36 gigawatts, but that can't happen 
without supporting policy. And without these policy changes, we 
also lose out on the tremendous job and economic benefits 
created by pumped storage hydropower across the country.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Seifarth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Seifarth. I think you 
recognize you are looking at two women that believe a lot in 
our hydro resources and the opportunities for storage through 
our hydro. Thank you all for your comments this morning and the 
discussion that we are about to have.
    We talk a lot in this Committee about the breakthrough that 
we saw with natural gas when hydraulic fracturing came along. 
We were at a point where everyone was talking about, you know, 
``the end is near'' type of a thing and, quite honestly, our 
technologies are always moving forward. We certainly hope that 
they are. And that was clearly a breakthrough when it comes to 
the oil and gas sector and how it has advanced forward.
    We have heard about the opportunities that we have now with 
energy storage technologies, but you also, all of you, I think, 
have raised a few of the challenges that we have. You have some 
scientific limitations. I think it was you, Dr. Sprenkle, who 
said we are going to need a new manufacturing paradigm. 
Industrial acceptance is an issue.
    I guess the question that I would pose to all of you is, in 
order to really advance our energy storage technologies, do we 
need a breakthrough? Do we need, kind of, the hydraulic 
fracturing equivalent in order to advance us to that next 
level? And if so, what is it? Or do you think that we are just 
going to continue to move along as we have been? Again, I throw 
it out to each of you for your input here.
    Go ahead, Dr. Sprenkle, you get to start.
    Dr. Sprenkle. Thank you.
    So, there are tremendous opportunities for breakthroughs in 
this field. What we're seeing now is where there's high value, 
we can make it work, but if we want energy storage, kind of, 
ubiquitously deployed across the grid, it's going to have to be 
much cheaper. It's going to have to last a lot longer than it 
does today, and we're going to have to show that safety. And 
that's what, through the R&D efforts is, hopefully we can drive 
that down to where it's a natural grid asset to put on there. 
And for most of the, kind of, lower value applications, storage 
can be able to provide that service, in my mind.
    The Chairman. Mr. Kathpal?
    Mr. Kathpal. From our perspective in a business, the good 
news is we don't need a breakthrough, but breakthroughs are 
going to happen, as Dr. Sprenkle suggests.
    So the technology we have today of lithium-ion is mature 
and is at a cost that is appropriate for a lot of grid and 
utility applications and its cost will continue to decline.
    Today we see it as already available to be in a mainstream 
utility planning and procurement type of setting. And the good 
news is that we will continue to have further technology 
evolution that will only open up more applications and lower 
costs to consumers further.
    The Chairman. Good.
    Mr. Moores?
    Mr. Moores. Yeah, I agree with that.
    For me it was always a matter of economics really. Can you 
get cheap enough batteries, abundant production of batteries 
that can be used in numerous applications, ultimately electric 
vehicles is really what's kicked this off.
    And lithium-ion cells, you've had that really the last two 
and a half to three years. Now we see lithium-ion cell costs as 
one big contract under $140 per kilowatt-hour. Even in 2009 
this was $1,000 per kilowatt-hour, in and around.
    So it was a case of actually waiting for these industries 
to mature and to become cheap and to get up to scale and other 
R&D benefits through the cathode and anode. But ultimately, 
it's coming down to scale.
    The battery is getting better as well, not just through the 
actual cell itself, but you build these lithium-ion batteries 
into packs and then they go into vehicles or they go into 
energy storage units. Now there's technology software 
management systems that control the energy within those battery 
packs, so that's improving battery life without necessarily the 
batteries themselves improving. The whole system is becoming 
far more intelligent, and I think that's going to drive this 
next five years.
    The Chairman. Very good.
    Mr. Seifarth?
    Mr. Seifarth. I agree with Simon.
    The technology there is in the electronics. And it's 
interesting because we're still talking about hydro after 150 
years. It's the old reliable and it's changing with the times 
as well.
    The innovation in hydro is coming with today's high 
technology pumped storage facilities having the ability to 
react in milliseconds through a combination of hydraulic 
innovations and also electronic innovations, you know, there's 
automation, automation controls, frequency control, full 
converter frequency control for hydroelectric turbines.
    We have a reliable energy source in hydro and what we need 
now is some legislation to help advance that with the newer 
technologies. Think of it in a way of having that great, old 
Chevy car you had and the engine is still solid as a rock and 
you're getting more efficiency out of that car by putting in 
more technology. So it's the right sustainable thing to do.
    And after all these years, we're still, you know, lucky 
enough to be talking about hydro as we talk about grid 
reliability, black start capability and the security of the 
country.
    The Chairman. Very good.
    Thank you, all.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Well, it is hard not to follow up on that. Mr. Seifarth, 
what kind of resiliency do you think this investment also makes 
against the changes to snowpack and the fact that continuing to 
make investments in storage is also important from that 
perspective of the change in dynamics we are seeing?
    Mr. Seifarth. Well, I think there you're seeing a lot of 
scientists and others looking at some closed loop systems. And 
those, what I mean by closed looped, obviously, we have a 
captive upper and lower reservoir that's not necessarily 
connected to an existing water stream or water source.
    In addition to that, you see owners retrofitting their new 
plants based on the changes that they're seeing in the 
hydrology of the plant. There are owners right now who are 
actually putting minimum flow units into their units so that 
they can aerate and provide power even with changing 
environmental conditions. So hydro is extremely adaptable and 
again, it's keeping up with the technology as it presents 
itself in a changing climate.
    Senator Cantwell. Dr. Sprenkle, if PNNL and other labs 
stopped doing the research, would somebody pick up the slack?
    Dr. Sprenkle. For the new technologies that are coming out? 
No. As you've seen with lithium-ion. So, the first paper on 
lithium-ion was issued in 1976. The first materials that are 
used today were in the late '70s. It took until '91 to get that 
material into the first commercial product and until today to 
get to the prices where it's competitive. And so, there is a 
long development time with these, to get these to a level of 
maturity where they can make that transition out.
    That's--we saw it with lithium-ion. That's often beyond the 
time scale of a lot of companies.
    Senator Cantwell. And so, what would you say the priorities 
are to keep focused on, from a lab perspective?
    Dr. Sprenkle. I think, as we kind of outlined in my opening 
statement, it is materials. We need to focus on earth-abundant 
materials that inherently have a low cost. We need platforms 
that can take that and quickly get it to a point where a 
company can come in and there's some level of confidence with 
that, that it will work, that it will be reliable and it can be 
deployed out there.
    From a utility perspective, they want to see something that 
is robust and reliable and we have to be able to take those 
quickly to that point.
    Senator Cantwell. What do you think about the fact that we 
have Mr. Kathpal, to Mr. Seifarth--I mean, it's a broad 
spectrum of storage. What does that tell you?
    Dr. Sprenkle. Well, I think we have, you know, there's a 
place for everything in this. I mean, we need that storage 
capacity, however you can get it, whether it's bulk storage or 
whether it's distributed at the home to community, to 
substation, to central generation and trying to firm up 
baseload. You know, there's a role for it in all aspects. And 
those may all not be the same technologies. There may be 
different performance profiles that favor one over the other 
for those applications.
    Senator Cantwell. Well, I guess that was my point, that the 
breadth and depth of the research that you're doing can apply 
in lots of different things.
    The one thing that I did learn in the private sector that I 
thought was probably the most valuable thing is that you can 
have the advent of technology.
    Dr. Sprenkle. Yeah.
    Senator Cantwell. But it can take sometimes as much as 20 
or 25 years for the business model to develop.
    Dr. Sprenkle. Yeah.
    Senator Cantwell. So it's a long time.
    [Laughter.]
    But it's well worth the pursuit. I just hope that we 
continue to make this investment. And I think for us in the 
Pacific Northwest who want to keep marrying up the efficiencies 
of smarter intelligence that software delivers to renewables, 
but also into storage and taking advantage of those resources, 
we want to keep making the investment. To me, even if it was 
just on the hydro side, it would be well worth the investment. 
But obviously, with everything from electric cars to everything 
else, there's lots of opportunity. So I hope we make the right 
decisions here.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    Thank you to the witnesses for being here today.
    We talked a little bit about the electronics and some of 
the systems that are helping make battery storage more 
efficient, more productive. Could you talk about some of the 
technology, the physical technology, of batteries, like 3D 
lithium-ion structures?
    Is that where we're heading, sort of, the 3D battery, the 
structure with, like, the foam batteries?
    Dr. Sprenkle. I think there are a lot of opportunities in 
that, that agile manufacturing, wherever you can get these out, 
with these different systems.
    It is still, I think, in the future yard looking at for 
grid-scale batteries, ultimately, something that has low cost, 
you know, sodium, iron, those types of systems and that can be 
done in an aqueous base so you'd have that inherent safety.
    Senator Gardner. Dr. Sprenkle, in terms of the safety issue 
itself--one of the interesting articles that came out during 
the hurricanes over the past month, I believe it was Florida 
where Tesla had reprogrammed certain Tesla vehicles to allow 
the battery to have a further range because it was just a 
software that they could have purchased additional range for 
the Tesla if they paid additional dollars, but Tesla gave 
everybody a two- or three-day window or a week, whatever it 
was, to have the extended range just through a software update.
    So when we are doing battery storage, battery development 
research, are we also looking at the cyber components of what 
it means to just do a software update that could affect 
somebody's battery?
    Dr. Sprenkle. Yeah.
    Senator Gardner. How does that work?
    Dr. Sprenkle. There is a strong cyber component to storage, 
just in--it can offset a lot of things, but you also have to be 
able to control that because it can take or give energy, 
especially to the grid in there.
    So, yeah, those are the things that I think, probably just 
now, that people are really starting to focus on as we do get 
more deployments on it from the R&D side of it. You have focus 
more on the materials and technologies at this point, so----
    Senator Gardner. Dr. Sprenkle, as we get further into the 
recovery of and the rebuild of infrastructure in Puerto Rico, 
what opportunities should we be looking at with the Department 
of Energy to look at battery storage as part of the solution as 
we rebuild Puerto Rico's grid?
    Dr. Sprenkle. I think you look at it from a resiliency 
perspective. You look at that hierarchy of resiliency.
    We've already seen reports coming out of Florida where 
homes that had solar plus storage and, you know, critical 
emergency shelters that had solar plus storage were able to 
provide those essential services. If you have that at the home 
and then you have storage integrated at the community and then 
you have it at the substation. You have, no matter where you're 
impacted, you've got those different levels.
    There is the analysis in trying to figure out where the 
value proposition is. Ideally, we want that distributed 
throughout. And to do that it's going to have to be cost-
effective for all those applications in order to get that 
shared amount of storage out.
    So those are areas where DOE can, both in terms of the 
analysis, looking at it and the development and how those 
systems integrate and can aggregate when needed.
    Senator Gardner. We have talked a little bit about 
hydropower. We have, obviously, several different opportunities 
with the pump back operations in Colorado, production 
facilities and the need to store additional water and also the 
need to build out existing structures that lack a hydro 
component.
    Permit reform has to be part of our solution here as well 
when we look at permitting new water storage facilities, 
permitting new hydropower production facilities. I think that 
has to be something that the Committee looks into because you 
could have an opportunity for hydropower, but no permit means 
you cannot move forward on it. I think that is something that 
this Committee has to address.
    And finally, I would just say that over the past weekend, 
we had some great stored energy occur in Colorado in the form 
of a lot of white powder--and it is going on our ski resorts 
that are now opening in mid-October. I appreciate that 
opportunity for that storage of water to brag a little bit 
about Colorado.
    The Chairman. Send some of it our way, please.
    [Laughter.]
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, and Senator 
Gardner, thank you for bringing up Puerto Rico and the storage 
there because after the last couple months, or few weeks, we 
have seen Hurricanes Harvey, Irma, and Maria really demonstrate 
the risks that the grid faces from extreme weather.
    Some communities in Texas and Florida underwent days or 
weeks without power, and now American citizens in Puerto Rico 
and the Virgin Islands are facing a humanitarian crisis and the 
Federal Government needs everything it can get to help. It 
could take many months, not weeks, to get power back to these 
communities. This is, obviously, a serious risk to people's 
health and safety. It affects hospitals, water treatment and 
pumping systems,
et cetera. And our economic supply chain is disrupted as well.
    We met with FDA Commissioner Gottlieb last night, the HELP 
Committee, at an informal gathering with him and he is very 
concerned about the pharmaceutical plants in Puerto Rico. I 
think they produce 25 percent of our exports of drugs. There 
are drugs there, 13 of which are not produced anywhere else, 
and the FDA says we are really short. This is really an 
emergency.
    We know we are going to see more hurricanes and extreme 
weather events. With 80 percent of the grid in Puerto Rico 
destroyed, we need to rebuild and we need to rebuild a more 
resilient grid that is able to withstand the effects of these 
disasters.
    Mr. Kathpal, your company, AES, provides power to Puerto 
Rico and to the Virgin Islands. How can we rebuild the grid in 
a more resilient way? And what role do you see for energy 
storage?
    Mr. Kathpal. Sure. Thank you for the question, Senator 
Franken.
    We have no doubt that storage will play a role in the 
rebuilding and in the new form of grid in Puerto Rico and 
potentially other affected places.
    We're seeing some response organizers right now proposing 
pop-up solar and storage to power hospitals and other critical 
facilities. That's one way that storage can bring near-term 
resilience in the wake of a disaster and we also believe that 
there's going to be a role for storage at all levels of the 
grid, from the large-scale down to the distribution systems and 
then behind the meter as well as in microgrid applications.
    Senator Franken. You know, as Congress considers a 
supplemental aid package to help the people of Puerto Rico and 
the U.S. Virgin Islands, I really think it is critical that a 
package allows infrastructure to be rebuilt in a renewable and 
sustainable way.
    I think this is a tragedy, obviously, but given that we 
have to rebuild this from approximately 80 percent destroyed, I 
think that it is an opportunity too, to build in a way that is 
resilient and which also helps reduce the threat of damage in 
future disasters.
    And I just want to ask my colleagues to--I have discussed 
it with the Chairwoman. I think this is something that we could 
all get behind on both sides of the aisle which is just to take 
this disaster and use it to give these two territories the kind 
of resilient infrastructure that they will need to survive the 
next one so we don't have to go through this kind of dire 
emergency where people's lives are at stake and where it is 
impossible because, I believe, Puerto Rico is an island and I 
think the Virgin Islands are islands, too, surrounded by ocean.
    [Laughter.]
    I really think that this is something that we should do in 
a bipartisan way, in a way that is just smart and also where we 
could learn something and also we could gain something.
    So, that is just a little speech I have made to use the 
rest of my time.
    The Chairman. Thank you, Senator Franken. Know there are 
many members of this Committee that are very interested in how 
we can help Puerto Rico and the Virgin Islands build an energy 
grid that is more sustainable, that is more resilient, and 
making sure that we do this in a way that provides benefit.
    There is one thing about just being able to turn the lights 
on today. There is another thing about ensuring that there is a 
better path forward. I noted that you, Dr. Sprenkle, used the 
term, ``regional technology demonstrations.'' It just seems 
that through the tragedy we are seeing on the islands, there 
may be an opportunity here as we look to these islanded grids 
and figure out a better way.
    So----
    Senator Franken. Including more microgrids, in other words, 
where----
    The Chairman. You know I love microgrids.
    Senator Franken. You and I both.
    The Chairman. Yes.
    Senator Franken. I think so many of us love, love 
microgrids.
    The Chairman. Senator Risch, do you love microgrids?
    Senator Risch. Well, I am going to talk about something 
else.
    The Chairman. Alright.
    [Laughter.]
    Senator Risch. First of all, let me say, thank you for 
holding this hearing, Madam Chairman.
    In Idaho, at the Idaho National Laboratory, we have been 
doing this for a long time. In fact, every time there is a 
launch from Florida that goes into space it carries products 
that were manufactured at the lab for storage and for 
generation for years and years as they make a space voyage. So 
we are into that.
    But I am going to talk about something more down to earth, 
if you would. They are starting to discuss a very significant 
proposal in Idaho for, I guess, what people refer to as 
``repumping project'' where, when electricity is not used 
during the day, it is used to pump water back up and use it 
again at night. There is some of this, I know, that has gone 
on. Are any of you familiar with that technology, that storage 
technology? Have any of you worked any projects like that? Mr. 
Seifarth, it looks like you have something on your mind.
    Mr. Seifarth. Yes, sir. Thank you for the question.
    Yes, our company, Voith, participates primarily in these 
pumped storage hydroelectric projects and they can be from a 
small scale to a very, very large scale.
    For example, just two hours from here is a project called 
Bath County in Virginia. It's one of the largest pumped storage 
facilities in the world at around 3,000 megawatts, and it works 
just on that premise is during off peak hours and it pumps 
water to the upper reservoir and then during peak demands it 
releases that water. In addition to that it provides ancillary 
services to the grid by reacting very quickly to keep the grid 
stable and secure and reliable for both power and frequency 
control.
    There are advancing technologies that help make this even 
react faster in milliseconds, as I mentioned. So yeah, those 
technologies exist. They have been, pumped storage has been 
around for 100 years. It is well-proven, but it's been able to 
adapt to be able to support the other generation technologies 
that have come on board. So, it's kind of like Old Faithful 
there. It's been able to adapt and support a variety and a good 
mix for American power generation.
    Senator Risch. What is the fall on the reservoir that you 
are talking about? What is the----
    Mr. Seifarth. So this one located----
    Senator Risch. Approximately.
    Mr. Seifarth. This one located in Virginia is quite high. 
It's roughly 1,000 feet. And that's one of the larger ones.
    There's also many around the country, roughly 42 right now, 
with a lot more that are viable, but you just have to get 
through that hurdle of the licensing process.
    Again, our company believes in a good mix, a good, diverse 
mix, not a one-size-fits-all, but certainly hydropower and, in 
particular, pumped storage must be considered when we talk 
about a reliable U.S. energy grid. It would be that vehicle 
that cannot only produce electricity but also store electricity 
and be able to regulate.
    Senator Risch. I appreciate that.
    Anyone else want to weigh in here?
    Mr. Kathpal. Thank you, Senator.
    I just wanted to add a comment to provide some contrast to 
pumped hydro technology because I would like to respectfully 
disagree with Mr. Seifarth's earlier comment that pumped 
storage hydro is the only proven form of energy storage.
    We found that batteries are increasingly being selected in 
utility applications at scale with the additional advantages 
that they can be sited where they're needed, and they can be 
deployed in a quick timeline.
    So, I think appropriate for technology with the type of 
land disturbance of building a pumped hydro plant, the 
development and permit timelines are long, but as a contrast we 
recently deployed the largest battery energy storage system in 
the world outside of San Diego in a matter of six months.
    And that was prompted by a----
    Senator Risch. And what is the size of that? Put that in 
perspective for me.
    Mr. Kathpal. That's 37-1/2 megawatts and it provides power 
for four hours.
    Senator Risch. That is potential.
    Do you want to respond?
    Mr. Seifarth. Certainly.
    And again, we're here to support a diverse energy 
portfolio. If we talk contrast we're talking 3,000 megawatts of 
pumped storage and it can deploy that over the course of many, 
many hours. Again, the power density is quite high.
    So I think there is, there's certainly room for the grid to 
have stability for all aspects, from very large storage 
technologies that really can help control and stabilize a large 
grid to these microgrids and point of use that the battery 
niche market can definitely fill the hole in the gap.
    Plus hydro, like I mentioned, has been around for a long, 
long time and the closed loop systems are environmentally 
friendly and reduce the amount of land mass that's required.
    In addition to that we have a fleet of 42 pumped storage 
facilities in the U.S. that are there. They're ready for 
modernization to help support any other renewables and battery 
technologies that come on the scene. So it would behoove us to 
help modernize those existing facilities.
    Senator Risch. I was surprised to hear you mention 
Virginia. I would assume most of those 42 are in the Western 
states. Is that right, given the geography?
    Mr. Seifarth. They spread coast to coast.
    Senator Risch. Really?
    Mr. Seifarth. You know, obviously, we like a delta, an 
elevation, but there's Luddington up north. There's facilities 
out in California, in the Southeast. So it's where we have that 
topographical differential of anywhere from 400 to over 1,000 
feet are prime locations.
    Senator Risch. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator King.
    Senator King. Thank you, Madam Chair. I wanted to thank you 
for the treats from the Alaska Community Foundation. I'm going 
to penalize those who don't show up by taking theirs.
    [Laughter.]
    I appreciate that.
    Just first a statement. I want to thank all of you for 
being here. I want to thank the Chair for holding this hearing, 
because I think it is one of the most important issues in 
energy today.
    We are moving toward renewables. Of course, the question 
about renewables is wind, it doesn't always blow. The wind 
doesn't always blow, the sun doesn't always shine, but 
renewables plus storage equals baseload.
    That's really why I think this is so important, and it's 
critical to be talking about these issues and how we encourage 
the development of additional storage technologies.
    It seems to me that one of the other things we need is a 
level playing field. So, for example, if a homeowner has 
storage in their house along with solar panels, the value of 
that to the grid should be part of their payment, if you will.
    What worries me about the various schemes for net metering 
and those kinds of things is it's sort of a blunt instrument, 
and there is an important value to provide to the grid.
    I guess what I want to ask--perhaps, Mr. Sprenkle, you are 
the right guy to ask this question. Are we making the kind of 
progress in the economics and density of storage that we have 
made in recent years in solar panels? In other words, are we 
seeing a significant cost come--down? Because as that cost 
comes down, the whole world changes.
    Dr. Sprenkle. So, I do think in certain things that we are 
seeing, like I talked about flow batteries, we are seeing those 
prices come down to where they're getting closer.
    The problem with a lot of these technologies that would 
work very well on the grid--provide you six hours and longer, 
eight hours of duration to be able to peak shift the 
renewables. The problem is there's no intermediate or industry. 
So lithium-ion came up through commercial transportation and 
now we're seeing it on grid.
    And so, a flow battery, because of the lower energy 
density, doesn't have that same space. And so, they have to----
    Senator King. In terms of the technology generally, not 
just of the flow battery, but technology, are we seeing 
progress? I assume Tesla----
    Dr. Sprenkle. Yes. Lithium-ion prices have dropped 
dramatically over the last five years, that has enabled a lot 
of market penetration.
    Senator King. I think another important aspect of this is 
the--well, let me back up.
    In Maine, in your power bill, transmission and distribution 
cost more than generation. It is more than half of the bill. 
And most of us who have been in this industry for a long time 
always think about the cost of generation, you know, whether it 
is solar, hydro or nuclear, or whatever.
    But transmission is a huge cost. Storage enables us to 
avoid transmission investments, isn't that correct? You are 
nodding, but the record won't----
    Dr. Sprenkle. Won't show it.
    Yeah, so I think in a lot of the, as part of our program 
we'll go out and work with, you know, to look at the locational 
value of energy storage. And when we do that----
    Senator King. You are on a peninsula and need to build a 
new line to get the August peak. If you can do storage down 
there for a third of the cost, everybody is better off.
    Dr. Sprenkle. Right.
    Senator King. Isn't that correct?
    Dr. Sprenkle. So, we're seeing that now.
    We're doing a project in the San Juan Islands in 
Washington. And Decatur Island is the first, where the 
transmission line comes in for 14 islands. And that, there's a 
battery system that's going to be sitting there and most of the 
benefits from that, and we're still in the analysis part, is 
going to be the transmission and distribution deferral. 
Benefits of just them not having to upgrade that system by 
using that battery.
    Senator King. Mr. Kathpal, do you see that happening?
    Mr. Kathpal. Absolutely.
    AES recently partnered with Arizona Public Service, a 
utility in Arizona, to begin deploying a battery in a small 
town where demand is growing. The town is 90 miles outside of 
Phoenix, so the last length of transmission and distribution to 
it is a 20-mile line that goes through some pretty rough 
terrain. The utility selected placing a battery at the end of 
that line as a more economic solution than upgrading the 
transmission or distribution lines. And they've said that this 
is at, ultimately, half the cost to the consumer of what would 
have been the traditional transmission or distribution 
solution.
    Senator King. You are obviously working with the utility 
that understands this.
    One of the problems, it seems to me, in the long-term that 
we have to think about is how do we reward utilities for 
solutions that do not involve building things?
    In other words, the traditional model of utility income is 
a return on investment. So there is an incentive to invest. And 
if you are doing it for half the price, that utility, 
theoretically anyway, is losing a significant amount of income 
because they would have built that line and gotten a rate of 
return on it and that is good for their shareholders.
    So we need to not take income away from the utilities, but 
to think of other models for their economic performance other 
than rate of return on investment when, in fact, we can come up 
with, through storage and other technologies, lower cost 
investment which would benefit the ratepayers.
    I appreciate your being here. And Madam Chair, I really 
appreciate you having this hearing. This is important stuff.
    Thank you.
    The Chairman. It is important stuff. Thank you.
    I appreciated the acknowledgment there that when we are 
talking about storage, you want to have access to a great deal 
of it, as you noted Mr. Seifarth, and the applicability with 
the pumped hydro storage.
    But I think about the very small villages in Alaska. Again, 
the smallest, the micro of the microgrids, and how in a place 
where we don't have interconnection between the communities, it 
has to be these little, stand alone systems.
    The opportunity to go out to the Village of Kongiganak and 
to see how they have literally taken Chevy Volt batteries and 
layered them in a little shed outside. That is their battery 
storage unit, if you will, for the three wind turbines that 
they have, allowing them to get off diesel generation for, at 
least, a couple days when the wind is really picking up. Then 
when it stops we have some backup there. So we need to have it, 
clearly, at both ends. Recognizing that, I think, is important.
    Senator Duckworth, I will let you ask questions. I am going 
to have another round here, but since you have just come in to 
the Committee, welcome.
    We have a great group of folks here today.
    Senator Duckworth. We do, a real good news story, 
especially for my home State of Illinois.
    Thank you, Madam Chairwoman, for convening this very 
important conversation.
    As we have already heard, energy storage holds enormous 
prospects for a more flexible, cleaner and affordable 
electricity grid.
    In my home State of Illinois, we're not only leading energy 
storage research and development, we're also manufacturing the 
technology and we're exporting it. So it is actually creating 
jobs and bringing money back into the U.S.
    One company that comes to mind is a group that emerged from 
a school project at Northwestern University, SiNode Systems. 
Today, SiNode is manufacturing battery technology on the South 
Side of Chicago and exporting it to countries around the world. 
Their technology is helping electrical vehicles go further and 
making our cell phones last longer. And trust me, my cell phone 
needs it. I have a three-year-old, so she's on there all the 
time.
    In addition to entrepreneurs like the folks at SiNode, 
Argonne National Laboratory is also on the cutting edge of 
energy storage research.
    Dr. Sprenkle, your lab is a member of the DOE Joint Center 
for Energy Storage Research (JCESR) which is led by Argonne 
National Laboratory in Illinois. Your collective work has 
brought the private sector, universities, and the Federal 
Government together to solve challenges of developing next 
generation battery technology.
    Can you share your thoughts on the need for continued 
research in new chemistries and materials to address the 
nation's future energy storage needs?
    Dr. Sprenkle. Yes, thank you for the question.
    We are proud to be part of the JCESR. JCESR has really done 
an excellent job, in terms of advancing the state-of-the-art, 
in terms of our ability to characterize materials, our ability 
to predict new material systems.
    The goal is eventually these will go into the low-cost 
systems that can be deployed across the country and hear from 
multiple applications.
    And so, it is really looking at taking a step change, in 
terms of the base materials cost that we will need and being 
able to achieve the long lifetimes that we want from these 
grid-scale assets in there.
    Senator Duckworth. Well, what does that mean for consumers, 
these investments? And especially, you know, my understanding 
is that the materials that we are looking at now are things 
that we never would have looked at even 10, 15 years ago as 
potentially viable.
    Dr. Sprenkle. Right.
    So, we're--as we've looked at, you know, distribution and 
transmission deferral, those are exact savings to consumers, 
and when we go look at microgrids and systems that could be set 
in a microgrid, but then called on to reduce peak generation so 
we don't have to build a new peaker plant, those all go 
directly into saving the consumers money in this.
    Senator Duckworth. Thank you.
    As the panel I am sure knows, last week Secretary Perry 
directed FERC to issue a sweeping proposal to redefine how 
certain power generators are compensated for their electricity.
    API, the Natural Gas Supply Association, and the wind and 
solar industries have all united against the proposal. Mr. 
Kathpal, what is AES' position on this?
    Mr. Kathpal. Thanks, that's obviously a good question and 
something we've been thinking about a fair bit.
    I would say that, first of all, there's no market design 
that's perfect. We agree that resilience is important and 
certainly we believe that energy storage and other resources 
have resilience attributes that are not always taken into 
account, whether it's being valued by power markets or other 
parts of the energy policy and regulatory world.
    That being said, the proposed rule focuses on one 
resilience attribute, as far as we can tell, which is the 
onsite availability of fuel. And again, that's a relatively 
limited view, given the various other resilience attributes 
that we think storage and other resources bring. Some of those 
being providing grid stability in the short-term on an 
operational timeframe, as well as being rapidly deployed in 
places where power is needed on a planning timeframe.
    The good news is that FERC is currently examining some of 
these issues with respect to storage already within a notice of 
proposed rulemaking on energy storage issues within the power 
markets. We're hopeful for developments there as well as for 
market solutions and policy solutions that would improve the 
valuation of those resilience attributes.
    I would say that the proposed mechanism in the rule you're 
referencing would be a significant change to U.S. market design 
and should certainly be subject to public debate.
    Senator Duckworth. Thank you.
    Does anybody else have a comment or want to make a comment 
on this?
    No one is going there?
    [Laughter.]
    Alright.
    Then I want to follow up a little bit, Mr. Kathpal.
    Last year, the Illinois State Legislature passed a law that 
will invest $750 million in wind and solar initiatives. Those 
investments will build on an already strong wind and solar 
industry in my home state. In fact, since we started pursuing 
investments in wind, we have created 100,000 jobs in Illinois 
alone, just in wind.
    As you mentioned in your testimony, energy storage is a key 
enabler of renewable integration into the electric power 
system. In addition to helping wind and solar, are there 
ancillary benefits to energy storage?
    Mr. Kathpal. Yes, absolutely.
    So we believe that in addition to working well with wind 
and solar, energy storage is great because it's a resource 
neutral, fuel neutral, flexibility tool so it can be used to 
provide capacity where a capacity on its own is needed. It can 
be paired with renewables to lower generation costs, as my 
company is doing on the island of Kauai, providing 28 megawatts 
of solar, paired with five hours of batteries at a fraction of 
what consumers on that island would pay for burning oil.
    We have experience in deploying storage in nine U.S. states 
and six countries, so it seems like in pretty much every supply 
mix, every regulatory structure, we're finding a business case 
for energy storage. Sometimes that's ancillary services and in 
an organized power market, sometimes it's a specific co-benefit 
of pairing storage with a type of generation and sometimes it's 
on the infrastructure side with transmission or distribution 
applications.
    Senator Duckworth. Thank you. I am out of time.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Mr. Moores, I do not want to leave you out of this 
conversation because of what you have brought to the table as 
we are discussing these opportunities when it comes to energy 
storage technology.
    As I mentioned, we have to be able to have the minerals, 
the critical minerals, that allow us to lead in these spaces.
    You mentioned China and not only pointed out that China has 
significant quantities of critical minerals, while we, in this 
country, also have some good supplies. I know in Alaska we are 
looking with great interest at some of the supplies that we 
have, but we also recognize that in addition to China having 
the materials, they have the factories, they are doing the 
processing, they really are in control of many of the parts of 
that supply chain.
    I think it was you, Dr. Sprenkle, who mentioned the United 
States and the leading role that we have played with the 
development of the lithium-ion battery. But Mr. Moores, where 
do we go if we are in a situation that I have outlined where we 
are reliant on other nations, for at least 50 percent of 50 
different minerals? We are 100 percent reliant on 20 different 
minerals, nine of which China is the primary source, and at 
least 50 percent of another 30 minerals.
    In addition to not having the resources here and also 
relying on China for processing of minerals, how vulnerable 
does this make us? How concerned are you and others in our 
ability to continue to lead in these areas as we try to develop 
these technologies if we do not have these critical minerals?
    Mr. Moores. Yeah, thank you for the question.
    I wouldn't be necessarily concerned about every rare 
mineral or mineral that you can't pronounce or that sounds like 
a rare mineral because they're used in very high-tech 
applications. They might be very niche. They're likely to be 
part of a big growth industry.
    I would be very concerned about technologies that are going 
to be called to the next big industry, energy storage, because 
that's going to fundamentally alter the car industry, alter 
sectors. It's going to fundamentally alter the energy space 
over the next 100 years.
    And so, those core minerals, well let's say the battery 
technology that will be central to that for the next 10 years, 
10 to 15, will be lithium-ion batteries. That's because of the 
cost. It's because of the scale they're being produced. They're 
going to be produced over the next five years with the rise of 
these battery megafactories around the world. And so, really, 
I'd be looking at the four critical raw materials that go into 
a lithium-ion battery, which are lithium, graphite, cobalt and 
nickel.
    But again, these aren't nickel as a commodity. It's a 
metal, but it's actually the nickel chemical that goes into a 
battery, very specialized processing route. Not many people do 
this.
    Of those four raw materials, for batteries, the U.S. 
imports 100 percent of each. So no mining of these speciality 
raw materials happens in the U.S., yet, apart from the----
    The Chairman. Explain to me, if you will, because you have 
used that term now several different times that we need to view 
these not as commodities, but specialities.
    Mr. Moores. Yeah.
    So these are niche--essentially a commodity you would dig 
out of the ground and you have light pile, for example, of coal 
and you have a customer that can use that product, pretty much, 
straight away. It's driven, really, by the supply side, not the 
customer.
    For these raw materials they are, they change per customer. 
So the lithium that one battery company might get might be 
slightly different to the lithium that another battery company 
gets. And these are very specific customers. So really there's 
a tailoring that happens and a couple of steps of processing, 
chemical processing, that happens to the raw material. It's 
those steps that the industry, that countries actually, need to 
fully understand.
    The Chairman. Because we are not doing any of that 
processing here, are we?
    Mr. Moores. No, no. For lithium----
    The Chairman. Is most of it happening in China?
    Mr. Moores. Yes.
    But for lithium you have two companies. You have Albemarle, 
which is a U.S. company, and FMC Lithium as well. And they do 
produce some battery-grade lithium here, but they're not 
sourcing the lithium from the U.S. For the others, no. Happens 
in giant graphite, 100 percent in anode graphite, it goes into 
a battery, is from China.
    The Chairman. One hundred percent of it.
    We have some graphite up North that we are looking to 
develop.
    Mr. Moores. Yeah, there are two areas. There's Alaska, 
there's Alabama in the U.S., that have been developing 
resources and it's quite interesting. It's not just the 
resource, it's the processing that happens to make these 
battery-grade materials. And that's really where the gap is.
    The Chairman. Is it an issue of investment in the supply 
chain here in the United States that is holding us back or is 
it our regulations? I know that from a processing perspective 
that is a real challenge for us, but is it more on the 
investment side, in your view?
    Mr. Moores. Yeah, investment would be number one, then 
regulation, number two.
    But I think the investment, as this industry grows tenfold, 
the battery to lithium-ion battery model grade, tenfold over 
the next 10, 15 years, then the investment should become 
obvious. It should, the money should come from somewhere. At 
the moment, it isn't, but that should sort itself out in a 
reasonable timeframe. And----
    The Chairman. So you think just increased demand will bring 
that investment on?
    Mr. Moores. Yup.
    The Chairman. You think that that will marry up here.
    Mr. Moores. Yeah.
    I think so. I think at the moment it's all coming from 
institutions, whether New York or San Francisco or places like 
this. And they're starting to understand the battery story and 
how big this is going to be and how disruptive.
    But still, the problem is all of these companies that are 
making, that are building the mines or doing the processing 
plants, battery-grade processing plants, are also very small 
companies. Institutions can't invest in them because they end 
up owning 100 percent and they can't get in and out and do 
their investment thing. So for now, it's a niche industry going 
into the mainstream and we're, kind of, stuck in the middle at 
the moment.
    These companies are now looking for help from the industry, 
from investment and from government, and they're not quite 
getting it yet.
    The Chairman. Let me ask both Dr. Sprenkle and Mr. Kathpal, 
are you concerned about the issue that Mr. Moores has raised 
with the ability to access, whether it's lithium, graphite, 
cobalt or nickel?
    Dr. Sprenkle. So, yeah, there are concerns about that. 
We've got active programs looking at developing the sodium 
replacement for lithium that we can get. It's nowhere near the 
size of what they're doing in Japan where every major 
manufacturer is developing an alternative to have a sodium-ion 
battery, in case they need to, they can plug into their system.
    Other materials we're looking at, like with our vanadium 
flow battery. We're not on the same level of criticality but 
can we take that to a point where I can make an organic 
molecule that can be synthesized and perform the same function 
as that vanadium species, then I'm no longer dependent upon 
commodity metal at that point to be able to keep that cost 
structure.
    The Chairman. But how far out is that?
    Dr. Sprenkle. And that's, that is a big challenge to do 
that, to take that molecule and make it electrochemically 
active in there and soluble, and stability that we need. But 
the payoff at the end is that you have something you can 
control and something that you can design the properties that 
you want and control, you know, basically how much is made, 
so----
    The Chairman. Mr. Moores?
    Mr. Moores. Yeah, it's interesting actually that you look 
at different battery technologies, vanadium flow is one of 
them. But the reason we could come back to lithium-ion is we 
just, we follow where the money is.
    Thirty-five billion dollars has been invested in these 
lithium-ion battery megafactories. Now it's hard to understand, 
but it's true that they're invested without any kind of true 
understanding of the supply chains that feed them and the 
minerals that go into these batteries. It's only after they put 
these grand plants in place they realize we better look at 
getting our lithium, or lithium prices have gone up four times 
or nickel is going up double.
    And so, really, I guess the point is that the decision, the 
direction of the industry, has already been made. The blueprint 
for the next generation of this, the next step of this energy 
revolution for electric vehicles and for, to a lesser extent, 
but certainly for utility storage, the decision has been made 
on lithium-ion.
    There's two chemistries actually, there's NCM and NCA, 
which is a nickel, cobalt, manganese and a nickel, cobalt, 
aluminum.
    But it's the supply chains that are always the last to 
react because people that plan these things, whether it's VW 
planning to put ten million electric vehicles on the road or 
whether it's the battery companies planning to build 15 
gigawatt hours worth by 2020, the mine upstream is the last 
link in the supply chain and the last thought.
    It's only recently, because I've been getting these price 
shocks, they've been going to their customers and they're 
getting charged three, four times for their lithium hydroxide. 
That's when they realize there's a problem and these supply 
chains have to be looked at long-term.
    The Chairman. Well, it is a part of our dilemma here where 
we are clearly building the interest and demand. We talked 
about breakthrough technology earlier and most of you said we 
don't really need a breakthrough. We have the intelligence here 
and we have the technology. We just need to work to bring down 
the cost.
    Well, if the cost is going to be subject to the whims of 
China or other nations that hold the initial resource that we 
need, that is going to make it tough to get to that point where 
everyone would really like to be.
    We are in a situation where we have this foreign 
dependence. I think about the position that it puts us in 
because it wasn't too many years that we were talking around 
this Committee room here about our vulnerability as a nation on 
OPEC, on nations like Iran, Iraq, and Venezuela, and people 
that we did not particularly want to be doing business with and 
our technologies have allowed us to move beyond that.
    But I think about the issues that present themselves when 
we think about the minerals that go into so much of, well, just 
everything that we do. We do not think about them as part of 
that supply chain and how it influences the decisions, whether 
it is for the investors or whether it is for the market that we 
are trying to grow as we try to reduce the overall costs.
    So I appreciate the focus that you bring to the 
conversation, Mr. Moores, because I think it is an important 
part of what we are trying to do here. We want to be 
innovative. We want a breakthrough. We want to get to this 
point where we can incorporate and integrate all these 
additional technologies through the use of energy storage.
    So much of what Senator Franken wants to do with 
renewables, and I as well, is going to depend on our ability to 
get this stuff out of the ground and then be able to process 
it. So it is something that needs to be talked about, and we 
are doing the talking here.
    Senator Franken, do you want to have the last question?
    Senator Franken. Sure, thanks.
    Thanks for being here today and talking about storage. 
Storage, I really think, is an enormous game changer, allowing 
renewables to be baseload and also to increase grid reliability 
and resilience.
    That is why Senator Heinrich and I recently introduced the 
Advancing Grid Storage Act to promote research development, 
demonstration and deployment of grid-scale energy storage 
systems. The legislation provides dedicated funding for storage 
systems within ARPA-E as well as creating grant and technical 
assistance programs to help overcome barriers to deployment.
    So I would like to hear from the panel about what barriers 
you see to the deployment of energy storage systems.
    Dr. Sprenkle. So we tend to look at this as breaking down a 
long--it's a cost and it's the realized benefits of storage. 
Oftentimes when we look at the benefits, they're not fully 
defined and it depends on where the storage is located.
    And so, we have 3,000 utilities in the U.S., each with a 
different asset mix, each with a different operational 
condition. That value of storage changes in there. And so, 
that's a challenge to be able to get the planning models and 
analytical tools so we can go in and determine what that value 
is.
    But also we need to drive the costs down to where it is 
easy to buy these systems and put them out on the grid, at all 
levels, whether that's at the home or community or at a 
substation and have that tiered resiliency.
    Senator Franken. Anybody else?
    Mr. Kathpal. Sure.
    We find that one of the key barriers to increasing 
competition and opening access to energy storage is getting it 
into the planning and procurement frameworks of the utility 
industry and, I think, Senator Heinrich probably knows this 
quite well because his state was one of the first to pass a 
rule at the state utility commission that asks the utilities in 
that state to look at energy storage as a resource option.
    So it would be directly compared to building a new, natural 
gas-fired, peaking plant before they decide on what their new 
sources of capacity would be.
    And so, that type of analysis when Dr. Sprenkle talks about 
planning models, that type of integrated resource planning 
happens in many states of the country. That's how utilities 
decide what to build next. And we see a need for technical 
assistance, whether that's to the state utility commissions, 
state energy offices, directly to the utilities, the regional 
planning or reliability organizations in getting storage on the 
menu so that it can be considered, but then also for its 
benefits to be analyzed comprehensively when those decisions 
are made.
    Senator Franken. And that is something New Mexico did.
    Mr. Moores?
    Mr. Moores. Yeah, just to answer the question, the original 
question, the barrier to energy storage.
    Senator Franken. Yes.
    Mr. Moores. I mean, it might sound like quite a simple 
answer, so I apologize if it is too simple. But it is low-cost 
availability of batteries, whether they're vanadium flow 
batteries, lithium-ion batteries, slightly different on the 
hydro side.
    If they're cheap and available then they'll be used. If 
they're expensive and they're hard to get a hold of, then they 
won't be used.
    With vanadium flow, for example, as a technology, 
fundamentally much better than lithium-ion for this 
application, but that uses vanadium pentoxide, very relatively 
rare compared to this vanadium metal that's produced and dug 
out of the ground.
    If you talk about lithium-ion, if you don't have your 
lithium, the graphite anode, the nickel chemical that goes in 
to make a lithium-ion battery, you're not going to have the 
batteries. You're not going to have energy storage systems that 
AES have installed on Kauai, for example. And so, it's cheap, 
low-cost batteries and then in order to get those, it is 
steady, stable materials, minerals and chemicals that make 
these batteries. And I think, fundamentally, that depends on 
everything.
    Mr. Seifarth. And for our industry it's quite simple. It's 
valuation and it's policy to put us on a level playing field.
    Senator Franken. By policy what do you mean exactly?
    Mr. Seifarth. So, for example, the process steps that we 
must go through to even modernize an existing hydropower plant 
are, I think the best word is cumbersome, time-consuming, 
laborious. It's years, 8, 10, 12 years in many cases. And 
utilities just don't have the stomach to invest in something 
that long with the flip of a coin if it will go forward or not.
    Senator Franken. Okay, thank you all.
    One last question.
    Is there something we can do? If you wanted us to do 
something to help, what can Congress do?
    Dr. Sprenkle. I think we used the example of the lithium-
ion timeline before and that it, you know, we had the materials 
in the late '70s and it took until '91 to get that material 
into commercial production and now to get that cost down.
    So as we're developing these technologies I can do a step 
change, in terms of the overall cost and make them common, like 
has been said, it is that continued focus on developing these 
and getting them through this to the point where they can be a 
commercial reality.
    That's, I guess, going back to one of those barriers is 
before the new technologies coming through, it's just that 
long-term focus on it.
    Senator Franken. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Gentlemen, thank you all for being here today and for your 
contributions. I think this has been a good discussion and 
gives us, as a Committee, something to build on. Again, 
recognizing the immediate situation in Puerto Rico and knowing 
that we have opportunities to try to build out more resilient 
energy infrastructure. We have these opportunities because of 
what we see coming out of our national labs, the innovations 
coming out of industry and then we have our good, old, reliable 
hydro. We sure thank you for that.
    But I do think it is important that as a Committee we 
recognize that as innovative as we can possibly be in these 
areas, we still come back to the need for more base power. I 
look at critical minerals as being the true baseload here, 
because without it we cannot get much of anything else started.
    So just keep that in mind, and thank you for, again, your 
leadership in these various areas. I appreciate that.
    With that, the Committee stands adjourned.
    [Whereupon, at 12:08 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
